                         Office of Inspector General
                         Legal Services Corporation



Inspector General
Jeffrey E. Schanz

3333 K Street, NW, 3rd Floor
Washington, DC 20007-3558
                                                 GRANTEE ADVISORY
202.295.1660 (p) 202.337.66 16 (f)
www.oig. lsc.gov
                                                      12-02-JS

       TO:                All LSC Executive~'
                                           ectors        rrf . , ' {   '

       FROM:
                                                   ,,/12- -. -~-0 -r=-
                          Jeffrey Schanz, Insp c W(Jeral            -'
       DATE:              March 27, 2012

       SUBJECT: Preventing Information Security Breaches



       The purpose of this Grantee Advisory is to stress the importance of securing confidential
       information entrusted to LSC grantees by illustrating the fallout that can occur when valued data
       is compromised, as well as to share good practices that can help prevent information security
       incidents.

       Three Illustrative Instances

      In the fall of 2011, a five-year employee of an LSC grantee deleted over 13 gigabytes of data
      (855,000 pages) from two database systems in the closing days of their employment. This
      included the grantee' s fund-raising database system that was maintained outside the grantee's
      network, unknown to the Executive Director. The other database system inside the grantee's
      network was routinely backed up, but some of the restored files were found to be corrupted and
      unusable. At least five grantee staff-members have spent a great deal of time on clean-up and
      recovery tasks, including reporting the loss to the police and the LSC OIG, sorting files,
      attempting to restore data, contracting with a computer forensics company, and negotiating
      insurance claims under their General Commercial Insurance policy (Valuable Papers coverage) .
      The computer forensics company's preliminary assessment determined that potential criminal
      activity had occurred, and estimated their data restoration work at a cost of $35,000. This cost is
      expected to substantially increase as the grantee' s policy analysts have to sort through and
      reassemble the restored files (both of these costs are expected to be reimbursable by the
      insurance company). The ongoing investigation will allow the grantee and/or insurance
      company to consider pursuing possible legal recourse.

      A second instance further illustrates the severity of information security breaches when client
      files are involved. In 2008, an attorney at another LSC grantee took several boxes of case files
      home to perform quality assurance reviews. The attorney's car was stolen with the case files in
      the back seat. The approximately 300 lost files contained clients' personal and private


                                                           1
information (including Social Security numbers), and sensitive case information. The grantee
spent considerable time and effort to recreate the missing files, to notify the affected parties, and
to assist with contacting the credit reporting companies to mitigate the risk of identity theft.

A third instance, while outside of the immediate legal services environment, also serves as a
cautionary tale regarding information security. A data analyst at the Department of Veterans
Affairs took home a laptop and an external hard drive containing unencrypted information on
26.5 million people, and it was stolen in a burglary of the analyst's horne. The agency waited
over 2 weeks to inform those who were affected. They estimated that it would cost between
$100 million to $500 million to prevent and cover possible losses from the data theft: In 2009,
the agency agreed to a $20 million settlement from a class action lawsuit, "even though the
Department has said that there is no evidence that the information on the stolen laptop was used
or that any person involved was harmed by it."11


Considerations

   •   LSC's 2012 Grant Assurance 8(a) requires grantees to have " ... an information security
       system that ensures confidentiality and security of its operations, assets, data, and files."

   •   There are many types of informational assets to protect within a legal services grantee,
       including: client case, employee personal and private information, financial assets,
       fundraising and vendor data, technology assets, as well as, proprietary business papers
       and information.

   •   When confidential information is lost, business entities potentially become legally liable
       for that information and any subsequent use.

   •   Presently, data breach notification laws apply in forty-six states, the District of Columbia,
       Puerto Rico and the Virgin Islands, which have enacted legislation requiring notification
       of security breaches involving personal information to affected parties.;;; Yet, data
       breaches still appear to be considerably underreported. The 201012011 survey from the
       Computer Security Institute (CSI), which annually conducts one of the largest surveys on
       the topic of information security, reports that out of the 138 respondents who had a
       security incident occur the previous year, only 27% reported the intrusion(s) to a law
       enforcement agency and only 18% reported intrusions to the individuals whose personal
       data was breached."

   •   Data breaches are costly in a number of areas. Direct losses from data breaches include:
       hiring a forensic investigator; sending out breach notification letters; and any other
       remediation and patching activity for which the organization writes a check. Indirect
       breach losses could include: loss of future income, lost employee time, potential negative
       publicity and damaged relationships with those parties adversely impacted.




                                                 2
Information Security Good Practices


The following are good practices which can help prevent information security incidents and
mitigate potential damages:

    • Have up-to-date written security policies and procedures in place.
    • Conduct information security trainings for new and current employees, reviewing:
      relevant federal and state data security laws and associated criminal and civil liabilities,
      applicable professional standards, and office policies and procedures.
    • Have all employees and consultants sign non-disclosure agreements.
    • Identify the confidential information the organization has, where it is stored, and who has
      access to it.
    • Consult with your insurance provider to ensure the organization has adequate coverage.
    • Ensure the safeguarding of paper files with policies governing the removal of files from
      the secure office environment.
    • Make a record of any electronic business data stored outside the grantees network (e.g.,
      cloud computing) and review the backup and restoration capabilities of the vendor.
    • Advise employees not to download confidential information on home computers and
      personal devices.
    • Ensure proper handling of passwords for all devices and drives.
    • Make sure to use trusted and secured web sites when sharing information over the
      Internet.
    • Consider encryption software to protect confidential information stored on portable
      devices and drives.
    • Review data access privileges to ensure there is not overly permissive access to
      confidential information on shared servers.
    • Back up confidential information on a server or detachable device - regularly.
    • With all backup systems, test and restore regularly to ensure they actually recover the
      data and operations as intended.

Conclusion:

In all three of the illustrative instances, losses could have been minimized or prevented if greater
information security had been applied. Your organization may benefit from a review of your
organization'S information security system's policies and practices in light of the good practices
described above. Additional resources about information security are provided below for further
information.

I hope you find this grantee advisory helpful. If you have any questions, please do not hesitate to
call David Maddox, Assistant Inspector General for Management and Evaluation at (202) 295-
1653, or by email at dm@oig.lsc.gov.




                                                 3
Additional Information:

SANS Institute: Understanding the Importance of and Implementing
Internal Security Measures,
http://www.sans.org/reading room/whitepapers/policyissues/understanding-importance-
implementing-internal-security-measures 1901 .

SANS Institute: Computer Security Policy Templates,
http://www.sans.org/security-resources/policies/computer.php .



Endnotes

i. Electronic Privacy Information Center, Veterans Affairs Data Theft,
http://epic.org/privacy/vathefti .

ii. Government Computer News,
http://gcn.com/artic les/2009/02/02/va-data -breach-su it-seW ement. aspx .

iii. States without security breach laws are: Alabama, Kentucky, New Mexico, and South
Dakota. National Conference of State Legislatures, http://www.ncsl.org/issues-
research/telecom/security-breach-notification-laws.aspx .

iv. 201012011 Computer Security Institute, Computer Crime and Security Survey,
htlp :l/gocsi .com/survey.




                                                     4
